WAIVER

Supreme Court, U.S.
FILED

AUG 0 5 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Maria.

19-86
- Director, Office of Workers' Compensation Programs, United States Department of Labor, et

Jordan

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

DynCorp International LLC with respect to discrimination claim

El I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member
Signature
Date.

Augus 5, 2

(Type or print) Name

Ethan Daniel Balsam
El Mr.

Firm

0 Mrs.

0 Miss

Littler Mendelson, P.C.

Address

815 Connecticut Avenue, N.W., Suite 400

City & State
Phone

0 Ms.

Washington, D.C.

202-789-3424

Zip
Email

20006

ebalsam@littler.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Jack Jordan, Lauren Wilson and Noel J. Francisco

RECEIVED
AUG - 7 2.019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

